TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                           A Follow-Up Evaluation of the
                          Workers’ Compensation Program
                          in the Internal Revenue Service



                                           June 6, 2011

                           Reference Number: 2011-IE-R006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                      DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 6, 2011


 MEMORANDUM FOR HUMAN CAPITAL OFFICER


 FROM:                         R. David Holmgren
                               Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Evaluation Report – A Follow-Up Evaluation of the Workers’
                               Compensation Program in the Internal Revenue Service (IE-10-017)

 This report presents the results of our evaluation to determine the Internal Revenue Service’s
 (IRS’s) compliance with the goals of the Safety, Health, and Return to Employment (SHARE)
 initiative;1 the IRS’s plans to meet the goals of the Protecting Our Workers and Ensuring
 Reemployment (POWER) initiative;2 the IRS’s progress in implementing programs for returning
 injured employees to work; and corrective actions taken by the IRS to address previous Treasury
 Inspector General for Tax Administration (TIGTA) audit recommendations.3

 Synopsis
 The IRS’s programs for returning injured employees to work have been largely successful and
 the IRS has implemented corrective actions for all of our previous recommendations. The IRS
 has been generally successful in meeting the goals set for the SHARE and POWER initiatives,
 with the exception of the goals for timely filing of claims.
 First- line managers primarily control the management of workers’ compensation claims and
 actions, and they also ensure that initial claims are timely filed. A manager may not have the
 time, knowledge, skills or training to adequately administer an employee’s claim and protect the

 1
   On January 9, 2004, President Bush established the Safety, Health, and Return to Employment initiative for Fiscal
 Years 2004 - 2006. SHARE was extended through Fiscal Year 2009.
 2
   On July 19, 2010, President Obama established a four-year Protecting Our Workers and Ensuring Reemployment
 initiative, covering Fiscal Years 2011 through 2014.
 3
   TIGTA Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation
 Claims (Reference Number: 2003-10-213, dated September 2003) and TIGTA A More Strategic Approach Could
 Enhance the Workers’ Compensation Program Return-to-Work Efforts (Reference Number: 2008-30-056, dated
 March 12, 2008).
                  A Follow-Up Evaluation of the Workers’
               Compensation Program in the Internal Revenue
                                 Service


Federal Government’s interest as well. It is the IRS’s responsibility to provide training and
assistance to managers in performing their duties related to workers’ compensation. Video
training materials have been developed to address managers’ responsibilities for a workers’
compensation claim. However, these videos are not universally distributed. Although the IRS
plans to put the video training material on an intranet website, a completion date has not been
set.

Recommendation
In addition to placing the video training materials on the IRS intranet, the Human Capital Officer
should consider making workers’ compensation awareness as part of the annual mandatory
briefings for managers.

Response
IRS management agreed that additional training related to workers' compensation could be
beneficial for managers; however, the curriculum for mandatory briefings is currently full.
Therefore, management plans to consider the use of alternative media to ensure that managers
understand their roles and responsibilities related to the workers’ compensation program.
Management’s complete response to the memorandum is included as Appendix V.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                  2
                              A Follow-Up Evaluation of the Workers’ Compensation
                                     Program in the Internal Revenue Service




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The IRS’s Return-to-Work Efforts Have Been Largely Successful ............. Page 3
          New Claims for Workers’ Compensation Have Declined but
          Older Unresolved Claims Remain Open....................................................... Page 4
          The IRS Has Implemented Corrective Actions to Address
          All Prior TIGTA Recommendations ............................................................. Page 6
          The IRS Has Been Generally Successful in Meeting Its Goals Set
          for the Safety, Health and Return to Employment and Protecting
          Our Workers and Ensuring Reemployment Initiatives ................................. Page 6
                    Recommendation 1:......................................................... Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Management’s Response to the Draft Report ...................... Page 15
        A Follow-Up Evaluation of the Workers’ Compensation
               Program in the Internal Revenue Service




                   Abbreviations

FECA         Federal Employees’ Compensation Act
FY           Fiscal Year
IRS          Internal Revenue Service
OWCP         Office of Workers’ Compensation Programs
POWER        Protecting Our Workers and Ensuring Reemployment
SHARE        Safety, Health, and Return-to-Employment
SHIMS        Safety and Health Information Management System
TIGTA        Treasury Inspector General for Tax Administration
WCC          Workers’ Compensation Center
                          A Follow-Up Evaluation of the Workers’ Compensation
                                 Program in the Internal Revenue Service




                                             Background

The Department of Labor’s Office of Workers’ Compensation Programs (OWCP) is responsible
for administering the Federal Employees’ Compensation Act (FECA).1 FECA is designed to
provide nontaxable payments to cover the lost wages, medical care, and survivors’ benefits of
Federal Government employees who are injured on the job.
The OWCP is responsible for deciding if an employee qualifies for disability payments and
paying benefits to qualified employees or their beneficiaries. Federal Government agencies have
other responsibilities to ensure that their employees are properly covered under FECA. These
other responsibilities include ensuring that personnel understand FECA, informing injured
employees of their rights and obligations, initiating the claim process with the OWCP,
authorizing medical care, and coordinating with the OWCP in monitoring the medical status of
injured employees to help determine if and when these employees can resume working.
Organizationally, the Internal Revenue Service’s (IRS’s) Workers’ Compensation Program is
located and managed from its Workers’ Compensation Center (WCC) in Richmond, Virginia.
The WCC serves as the IRS’s liaison with the OWCP and is responsible for controlling
employee claims, coordinating with the OWCP in monitoring the status of injured employees to
help OWCP determine when employees can return to work, and verifying the accuracy of
chargeback billings the IRS receives from the OWCP.
The WCC uses the Department of the Treasury’s Safety and Health Information Management
System (SHIMS) to process and control workers’ compensation claims. The SHIMS was
implemented on October 1, 2001, and was designed to replace the paper accident claim reporting
process with an electronic system that would allow claims to be submitted to the WCC and
OWCP quickly.
Two Federal Government-wide initiatives have been undertaken regarding workplace safety,
which includes workers’ compensation. On January 9, 2004, the President established the
Safety, Health, and Return to Employment (SHARE) initiative for Fiscal Years
(FY) 2004 - 2006. SHARE was extended through FY 2009. The initiative’s four goals cover the
most important elements of a strong safety and health management program: lower workplace
injury and illness case rates, lower lost-time injury and illness case rates, timely reporting of
injuries and illnesses, and fewer lost days resulting from work injuries and illnesses.
On July 19, 2010, the President established a four-year Protecting Our Workers and Ensuring
Reemployment (POWER) initiative, covering FYs 2011 through 2014. The POWER initiative
will extend previous workplace safety and health efforts of the Federal Government by setting


1
 Ch. 458, 39 Stat. 742 (1916) (codified as amended in scattered sections of Titles 1, 5, and 18 of the United States
Code.)
                                                                                                              Page 1
                       A Follow-Up Evaluation of the Workers’ Compensation
                              Program in the Internal Revenue Service



more aggressive performance targets, encouraging the collection and analysis of data on the
causes and consequences of frequent or severe injury and illness, and prioritizing safety and
health management programs that have proven effective in the past.
The Treasury Inspector General for Tax Administration (TIGTA) previously performed two
reviews of the IRS’s Workers’ Compensation Program - one in 2003, 2 and one in 2008.3 In the
2003 review, the objective was to determine if the IRS timely and properly evaluated workers’
compensation claims. It was determined that the IRS properly processed its workers’
compensation claims for those injuries that occurred within the previous five years (from 1998 to
2002). TIGTA recommended that the IRS place greater emphasis on and develop clearer
procedures for management of older cases and associate the compensation paid to disabled
employees back to the responsible business or organizational units. The IRS agreed with the
report and proposed corrective actions to address all of these recommendations.
The overall objective of the second review in 2008 was to evaluate the effectiveness of the IRS’s
progress since 2003. The audit concluded that the IRS had made notable progress in managing
its workers’ compensation program. However, while program management had improved,
TIGTA noted that the IRS still needed to ensure that required procedures are followed when
claims are initiated and implement a more strategically oriented approach for employees who
return to work following an injury.
This review was performed at the IRS’s National Headquarters in Washington, D.C., in the
Human Capital Office; and the Workers’ Compensation Center in Richmond, Virginia, during
the period of November 2010 through February 2011. This review was performed in accordance
with the Council of the Inspectors General for Integrity and Efficiency Quality Standards for
Inspections. Detailed information on our objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




2
  TIGTA Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation
Claims (Reference Number: 2003-10-213, dated September 2003).
3
  TIGTA A More Strategic Approach Could Enhance the Workers’ Compensation Program Return-to-Work Efforts
(Reference Number: 2008-30-056, dated March 12, 2008).
                                                                                                 Page 2
                      A Follow-Up Evaluation of the Workers’ Compensation
                             Program in the Internal Revenue Service




                                 Results of Review

The IRS has made progress over the last eight years in administering the workers’ compensation
program. It has made significant efforts to meet goals set by the SHARE and POWER initiatives
and have made improvements in efforts to return injured employees to work. However,
enhancements could be made in the training of managers to facilitate a more efficient submission
of initial claims.
The IRS’s Return to Work Efforts Have Been Largely Successful
The IRS has been successful in returning injured employees to work. Data in the SHIMS database
indicates that 93 to 96 percent of claims filed in each FY since 2003 eventually resulted in the
employee returning to work. Almost all who returned to work did so at full capacity (97 percent in
FY 2009); with a small number returning to lighter duty, working part time, or receiving some other
limited accommodation.
We researched the SHIMS database to identify injured employees who returned to work. The data
was compiled by the fiscal year in which the claim was filed (regardless of the date when the
employee returned). Even if able to return to work in a full or limited capacity, an employee may
continue to have medical treatments covered by workers’ compensation. Consequently, some
claims remain active or open, as long as continuing medical care or some disability continues.
            Figure 1: Workers’ Compensation Claims Filed by Fiscal Year
                                Active     Closed              Returned   % returned
                Fiscal Year                           Total
                                Claims     Claims              to Work     to Work
                   2001           55       2,702      2,757      818         30%
                   2002           41       2,926      2,967     2,128        72%
                   2003           64       2,706      2,770     2,572        93%
                   2004           67       2,521      2,588     2,427        94%
                   2005           82       2,228      2,310     2,168        94%
                   2006           92       2,063      2,155     2,041        95%
                   2007           132      1,931      2,063     1,953        95%
                   2008           192      1,680      1,872     1,793        96%
                   2009           388        1318      1,706    1,618        95%
             Source: TIGTA analysis of the SHIMS database.



                                                                                            Page 3
                      A Follow-Up Evaluation of the Workers’ Compensation
                             Program in the Internal Revenue Service



New Claims for Workers’ Compensation Have Declined but Some
Older Unresolved Claims Remain Open
According to the SHIMS, the IRS had 2,610 active workers’ compensation claims as of
August 2010. New claims for workers’ compensation as well as the total cost of workers’
compensation to the IRS have generally declined over the past five years. However, older
unresolved claims remain active. Despite the successful return to work efforts, some employees
who are injured on the job may never return to work for a variety of reasons. For example, an
employee may be permanently disabled or have recurring medical needs. Such claims are referred
to as “No Return-to-Work Potential” claims and approximately 25.4 percent of active claims were
in this category as of August 2010.
Approximately 50.6 percent of the active claims (1,320 of 2,610) relate to employees who have
returned to work in a full capacity. Another 7.4 percent of claims relate to employees who have
returned to work in a limited capacity. Even if able to return to work, an employee may continue to
have medical treatments covered by workers’ compensation.
                    Figure 2: Active Workers’ Compensation Claims




             Source: TIGTA analysis of the SHIMS database.

The IRS centralized its Workers’ Compensation Program under the WCC in 1994. Prior to the
establishment of the WCC, claims were handled by IRS’s personnel located in geographically
dispersed offices. Authorized staffing for the WCC is 30 employees. This includes
16 specialists, two leads (group managers), two clerks, and two assistants, as well as
administrative and management staff.
The assigned workload inventories for the specialists have dropped over the last few years.
Average case loads have declined from 343 (FY 2006) to 277 (FY 2009), partly due to the
addition of two specialists in FY 2009, as well as the decline in new claims. The WCC is

                                                                                            Page 4
                            A Follow-Up Evaluation of the Workers’ Compensation
                                   Program in the Internal Revenue Service



organized into two groups, and claim inventory is assigned by the IRS’s Business Operating
Division.
Total workers’ compensation costs to the IRS for FYs 2006 through 2010 have decreased, although
there was a slight increase from 2009 to 2010 due to increased medical costs. Costs for
continuation of pay and leave plus wage loss compensation have decreased over this five-year
period. Medical costs have also decreased overall in that same period, with the exception of a
1 percent increase from FY 2009 to FY 2010. This increase is less than the comparable medical
cost portion of the consumer price index,4 which increased 3.4 percent from 2009 to 2010.
                            Figure 3: IRS Workers’ Compensation Costs
                                    FY 2006           FY 2007          FY 2008          FY 2009           FY 2010
    Continuation of Pay /
                                    $1,096,000       $1,308,000       $1,086,000       $1,059,000        $1,084,435
    FECA Leave
    Wage Loss
                                  $35,338,000      $35,419,000       $32,829,000      $32,479,000      $31,806,039
    Compensation

    Medical                       $10,276,000      $10,491,000       $10,543,000      $10,871,000      $11,972,039

                   Total Cost     $46,710,000      $47,218,000       $44,458,000      $44,409,000      $44,862,513
    Source: WCC.

Among employees who are likely never to return to work, the IRS, as does other agencies, has
employees who are on workers’ compensation but are eligible to retire. As of August 2010, the
SHIMS listed 165 employees who had not returned to work and were over the age of 55 with at
least 30 years of service.5 Of these, 150 (91 percent) are separated from the IRS’s active rolls, but
remain on workers’ compensation (included are three deceased employees whose beneficiaries are
receiving payments). Of the other 15, ten remain on the IRS’s rolls with return to work potential,
and one is classified as having no return to work potential. The other four are indeterminate because
of missing data in the “current status” field of the SHIMS database.
The current FECA allows an employee to retire on disability, or remain on workers’
compensation, whichever provides the greatest benefit. A bill (Senate Bill 261) has recently
been introduced in the U.S. Senate that would convert employees on workers’ compensation to
the appropriate retirement system when they reach retirement age. Until such legislation is


4
  The consumer price index is defined by the United States Bureau of Labor Statistics as “… a measure of the
average change over time in the prices paid by urban consumers for a market basket of consumer goods and service”
such as transportation, food and medical care.
5
  IRS employees may be on either of two Federal retirement systems, each of which has some differences in retirement
eligibility. SHIMS data do not contain indicators of which of the two applies to an individual employee. For this
analysis, we made assumptions based on likely criteria that would apply to the majority of employees in this age bracket.

                                                                                                                Page 5
                     A Follow-Up Evaluation of the Workers’ Compensation
                            Program in the Internal Revenue Service



passed, however, there is nothing that any Federal agency or bureau can do to force an employee
to retire under current law.
The IRS Has Implemented Corrective Actions to Address All Prior
TIGTA Recommendations
Generally, the IRS has taken appropriate and timely corrective action on all findings from the
previous two audits. In our 2008 report, we determined that since 2003, the IRS had fully or
partially implemented all eight of our 2003 recommendations for enhancing case management
techniques, increasing the accuracy of performance measures, and holding IRS managers more
accountable for reducing costs associated with workers’ compensation claims.
While program management had improved, TIGTA noted in 2008 that the IRS still needed to
ensure that required procedures are followed when claims are initiated and implement a more
strategically oriented approach for returning employees to work following an injury. In its
response to the 2008 report, the IRS laid out appropriate corrective action to all our
recommendations.
However, the IRS was late to fully implement corrective action to the recommendation that the
Human Capital Officer establish a more strategic approach to enhance return-to-work efforts.
The Human Capital Officer agreed to develop a policy with a goal of addressing cross-functional
placement for injured workers. An interim policy was developed but final implementation and
incorporation into the Internal Revenue Manual was not completed until February 7, 2011.
The IRS Has Been Generally Successful in Meeting the Goals Set for
the Safety, Health, and Return to Employment and Protecting Our
Workers and Ensuring Reemployment Initiatives
SHARE Goals
The IRS and the Department of the Treasury were successful in meeting all of the goals of the
SHARE initiative, and are on track to meet the goals of the POWER initiative, with the
exception of the timely filing of claims. Even for the timely filing goal, the IRS and the
Department of the Treasury are close to achieving their target results.
The Department of Labor generates statistical reports based on data supplied by Federal agencies
to determine compliance with the SHARE and POWER initiatives. Neither the IRS nor the
Department of the Treasury provides calculations for the reported statistics, but the data come
primarily from the SHIMS database.
For the SHARE initiative, the data were reported for the Department of the Treasury as a whole.
Figures for the IRS and other bureaus were not reported separately. The SHARE initiative
contained four goals for Federal agencies related to injury or illness claims and claims
processing:

                                                                                         Page 6
                      A Follow-Up Evaluation of the Workers’ Compensation
                             Program in the Internal Revenue Service



   1. A reduction in total case rates for injuries and illnesses by a minimum of three percent
      per year;
   2. A reduction in case rates for time lost injuries and illnesses by a minimum of
      three percent per year;
   3. Improvement in timely submission of injury claims by five percent per year; and
   4. A reduction in lost production day rates by a minimum of one percent per year.
In our 2008 report, we noted that the IRS made steady improvement in key areas under the
SHARE initiative. Improvement in claims processing time is particularly important because it is
the initial step in a case management process designed to reduce workers’ compensation costs by
getting workers healthy and back to work as quickly as possible.
In FY 2007, the Department of the Treasury, with significant contribution by the IRS, was
recognized by the Department of Labor for its performance in decreasing the number of injuries
and illnesses by more than any other Federal Government agency since the SHARE initiative
began in 2004.
The Department of the Treasury was in compliance with three of the four SHARE goals in
FY 2009, the last year of the initiative. For the one goal not met (Goal 3: timely submission of
claims) the FY 2009 target was 95 percent, and the Department of the Treasury scored
87.8 percent for the year. However, the trend by the third quarter for FY 2009 showed
improvement.
            Figure 4: Department of the Treasury – Percentage of Claims
                                Timely Submitted
                              1st Quarter, FY 2009             81.5%
                              2nd Quarter, FY 2009             85.6%
                               rd
                              3 Quarter, FY 2009               89.4%
                              4th Quarter, FY 2009             93.3%
                      Source: Department of Labor.

Although not officially part of the SHARE initiative, comparable FY 2010 statistics have the
Department of the Treasury at 90.5 percent, with the IRS at 93.6 percent.




                                                                                           Page 7
                           A Follow-Up Evaluation of the Workers’ Compensation
                                  Program in the Internal Revenue Service



POWER Goals
The POWER initiative sets forth minimum targets for improvement in seven goals, measured
against a baseline of agency/bureau performance in FY 2009. These minimum targets include:
   1.   Reducing total injury and illness case rates;
   2.   Reducing lost time injury and illness case rates;
   3.   Analyzing lost time injury and illness data;
   4.   Increasing the timely filing of workers’ compensation claims;
   5.   Increasing the timely filing of wage-loss claims;
   6.   Reducing lost production day rates; and
   7.   Speeding employees’ return to work in cases of serious injury or illness.
Goals one to three relate to safety issues and goals four through seven relate to workers’
compensation. The POWER initiative began in FY 2011, so statistics are available only for the
first quarter. In the first quarter, the IRS exceeded the FY 2009 baselines for goals four and five,
but had not yet met the FY 2011 targets. For goal seven, reported at the Department level, the
Department of the Treasury exceeded both the FY 2009 baseline and the FY 2011 target.
        Figure 5: POWER Initiative Goals Related to Workers’ Compensation

                                                     FY 2009 Baseline   FY 2011 Target   1st Quarter

   4 - Timely Filing of Injury and Illness Notices       90.0%             92.7%           92.2%

   5 - Timely Filing of Wage Loss Claims                 50.8%             60.0%           58.2%

   6 - Lost Production Days                               22.2              22.0            23.1
   7 - Return to Work (Only reported at the
                                                         84.7%             85.5%           89.4%
   Department of the Treasury level)
  Source: Department of Labor.

The IRS and the Department of the Treasury are slightly under the new goal for timely filing of
claims as set forth by the POWER initiative. A lack of training and awareness regarding
responsibilities when a workers’ compensation claim is filed contributed to claim forms not
being submitted timely, and led to omissions and errors on initial claim forms and corresponding
data in SHIMS. Claims not timely filed can create processing delays, as well as additional cost
to the agency. Delays can affect medical treatment for the injured employee and delay their
recovery and return to work.
First-line managers are the primary control the management of workers’ compensation claims
and actions. It is the responsibility of the manager to assist the employee in initiating claims, as
well as to investigate the incident that resulted in the claim. Additionally, the manager is
responsible for attempting to provide the employee with alternate work duties that the employee
may be medically able to perform. Placing the burden of responsibility on a manager shifts the
                                                                                                   Page 8
                      A Follow-Up Evaluation of the Workers’ Compensation
                             Program in the Internal Revenue Service



control to an individual that may not have the time, knowledge, skills or training to adequately
administrate an employee’s claim and protect the Federal Government’s interest as well.
It is the responsibility of the WCC to provide training and assistance to managers. Training
materials have been developed to address the managers’ and employees’ responsibilities for a
workers’ compensation claim. Video CD-ROMS were created for both managers and
employees. We found that the training materials are comprehensive and useful. All aspects of
generating a claim are covered from the perspective of the manager and the employee.
However, the disks are only distributed on an as-needed basis. These disks have not been
distributed to all managers and all employees, and there are no records of who has received the
training. WCC employees stated this is primarily due to budgetary reasons, as there has not been
money set aside to make enough copies for universal distribution. The IRS has plans to put the
video training material on its intranet website, but no date for completion was given. Further,
just placing the training material on the intranet would not ensure all managers have familiarized
themselves with the material.
Each year, all IRS managers are required to complete a set of “mandatory briefings.” In 2010,
they included:
   •   Physical Security and Emergency Preparedness;
   •   Information Protection and Disclosure;
   •   Information Systems Security; and
   •   UNAX (Unauthorized Access).
Additional briefings may be included in an individual manager’s requirements depending on
their Business Unit and/or job classification. It may not be efficient or necessary to require
managers to complete the entire workers’ compensation training every year, but a brief
awareness presentation to remind them of their potential responsibilities and where to go for
additional training and resources when needed would prove beneficial to the IRS.
Recommendation
Recommendation 1: In addition to placing the video training materials on the IRS’s intranet,
the Human Capital Officer should consider making workers’ compensation awareness part of the
annual mandatory briefings for managers.
       Management’s Response: IRS management agreed that additional training in the
       workers' compensation area could be beneficial for managers. However, including this
       training in mandatory briefings for managers is not feasible, because of the curriculum
       for mandatory briefings is currently full. Instead, management plans to consider the use
       of alternative media to ensure managers understand their roles and responsibilities related
       to the workers’ compensation program.


                                                                                            Page 9
              A Follow-Up Evaluation of the Workers’ Compensation
                     Program in the Internal Revenue Service



Office of Inspections and Evaluations Comment: We understand the need to
limit the number of topics included in mandatory briefing for managers. Therefore, using
alternative media to provide managers with information related to workers’ compensation
could be an acceptable alternative to mandatory training.




                                                                                Page 10
                          A Follow-Up Evaluation of the Workers’ Compensation
                                 Program in the Internal Revenue Service



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our objective in this review was to evaluate the IRS’s compliance with the goals of the SHARE
initiative;1 the IRS’s plans to meet the goals of the POWER initiative;2 the IRS’s progress in
implementing programs for returning injured employees to work; and the corrective actions to
address previous TIGTA audit recommendations.3
I.       We reviewed source and background material to gain an understanding of workers’
         compensation claims and benefits. Some of the material reviewed included, but was not
         limited to:
         A. Federal Employees’ Compensation Act (FECA).4
         B. Department of Labor publications.
         C. Internal Revenue Manual 6.800.1 Employee Benefits, Workers’ Compensation
            Program.
         D. IRS intranet website: Employee Resource Center.
         E. Previous TIGTA audit and inspection reports.
II.      We obtained the SHIMS5 database and determined:
         A. The number of active workers compensation cases.
         B. Types of cases (injury, illness, etc.).
         C. Ages of cases.
         D. Types of employees (full-time or seasonal).
         E. Cost of workers’ compensation cases.

1
  On January 9, 2004, President Bush established the SHARE initiative for FYs 2004 - 2006. SHARE was extended
through FY 2009.
2
  On July 19, 2010, President Obama established a four-year POWER initiative, covering FYs 2011 through 2014.
3
  TIGTA Improvements Are Needed in the Process and Information Used to Manage Workers’ Compensation
Claims (Reference Number: 2003-10-213, dated September 2003) and TIGTA A More Strategic Approach Could
Enhance the Workers’ Compensation Program Return-to-Work Efforts (Reference Number: 2008-30-056, dated
March 12, 2008).
4
  Ch. 458, 39 Stat. 742 (1916) (codified as amended in scattered sections of Titles 1, 5, and 18 of the United States
Code.)
5
  SHIMS was implemented on October 1, 2001, and was designed to replace the paper accident claim reporting
process with an electronic system that would allow claims to be submitted to the WCC and OWCP quickly.
                                                                                                            Page 11
                     A Follow-Up Evaluation of the Workers’ Compensation
                            Program in the Internal Revenue Service



       F. Whether the WCC takes appropriate steps to verify the accuracy of total
          compensation included in FECA Chargeback reports.
III.   To determine the IRS’s compliance with the goals of the SHARE and POWER initiatives
       we:
       A. Interviewed representatives from the WCC.
       B. Determined compliance with the SHARE initiative and plans in place or being
          developed to meet the specific challenges of the POWER initiative.
IV.    To evaluate steps the IRS has taken to ensure that required procedures are followed when
       claims are initiated, we:
       A. Interviewed WCC staff to determine steps taken to address prior audit
          recommendations with regard to the initiation of claims.
       B. Reviewed any changes to policy or procedure involving employees’ first-line
          managers in all aspects of a workers’ compensation case.
       C. Evaluated procedures for entering data into SHIMS.
V.     To evaluate the IRS’s progress in implementing programs for returning injured
       employees to work, we interviewed representatives from the WCC and obtained
       additional supporting documentation to determine:
       A. Any changes to policy or procedure toward addressing cross-functional placement for
          injured workers.
       B. Policies and practices that resulted in the majority of claims when the employee
          returned to work.




                                                                                        Page 12
                    A Follow-Up Evaluation of the Workers’ Compensation
                           Program in the Internal Revenue Service



                                                                 Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James Douglas, Supervisory Evaluator
David Brown, Program Analyst




                                                                          Page 13
                   A Follow-Up Evaluation of the Workers’ Compensation
                          Program in the Internal Revenue Service



                                                                    Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Workforce Progression and Management Division OS:HC:WRT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
       Human Capital Officer




                                                                          Page 14
      A Follow-Up Evaluation of the Workers’ Compensation
             Program in the Internal Revenue Service



                                                  Appendix IV

Management’s Response to the Draft Report




                                                            Page 15
A Follow-Up Evaluation of the Workers’ Compensation
       Program in the Internal Revenue Service




                                                      Page 16
